Record No. 20-5308

IN THE
SUPREME COURT OF THE UNITED STATES

Tammy Horton,
Petitioner-pro se
v

Methodist University, Inc.,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FOURTH CIRCUIT

REPLY

RECEIVED
DEC 1 j 2020

Tammy Horton, Petitioner-pro se
3170 Bethel Baptist Road
Spring Lake, NC 28390
tammyjhorton@gmail.com

Statement of the Case
There is no inherent value in Methodist University’s (“Methodist”) regurgitation of
details as determined by the Federal District Court (“District”) when based on a faulty premise,
as evidenced in Court Record (the “Record”). The District court’s order granting Methodist’s
motion for Summary Judgment on January 23, 2019 was not a restatement offacts, instead it
more closely resembles an elaborate illustration of how wealthy universities, private or
otherwise, successfully undermine this nation’s state, federal, and constitutional laws while
preserving their authority and autonomy. Regardless, it is the courts that provide these
institutions the most effective means to carry this out: case precedence without legal oversight.
(App. 20).
In the instant case, the petitioner, Tammy Horton (“Horton”), filed a disability
discrimination Complaint in federal court in December 2016 due to Methodist’s violation of her
civil rights when they failed to provide Horton testing accommodations while enrolled as a
student in their Physician Assistant Program (“Program”). (App. 1). Horton followed university
policy by notifying Program administration of her learning disability and making a formal
request for testing accommodations to the university’s Disability Services Office (“DSO”).
(App. 2); (App. 3). While an undergraduate at Methodist, Horton was approved for and
received testing accommodations which is sufficient documentation of a history of a disability,
as well as provided DSO with current medical documentation of the same. (App. 4). The DSO
Director personally notified Program administration of Horton’s approved testing
accommodations. (App. 4); (App. 5-47:11-15; 55:12-20); (App. 6-38:14-18; 39:23 -40:3).
Program administration did not question the reasonableness of Horton’s approved
accommodations, nor indicate any conflict with the Program’s standards. (App. 6-39:9-11;

40:22-41:4); (App. 11-28 C.F.R. §35.108; §35.130). Horton contacted DSO on several
occasions to notify the Director that the testing accommodations provided by the Program were
inconsistent and to request that she be able to test at the university’s designated DSO testing
center. (App. 8); (App. 7-55:1-56:11). Hie only response Horton received was that DSO was
not allowed access to the Program’s exam software; therefore, Horton would be required to test
at the Program, but DSO never addressed the nature of the approved accommodations. (App. 3);
(App. 7-55:1-56:11). On October 12,2015, Program administration failed to provide any testing
accommodations for Horton on a scheduled Orthopedic (“Ortho”) exam. (App. l-p2); (App. 770:15-18; 22-25; 93:1-18; 98:20-99:8); (App. 10). As a result, Horton failed the exam which was
critical for her advancement to the final Clinical Phase of the program. (App. 6-81:16-17;
109:20-23). Program administration academically dismissed Horton from the Program as a direct
result of the Ortho exam failure which they were obligated to provide testing accommodations
but refused. (App. 7-34:11-17; 93:1-18; 109:16-23); (App. 11). In October 2015, Horton filed a
disability grievance with the Program, as well as a disability grievance with DSO. (App. 531:23-32:3; 40:16-19); (App. 7-91:21-92:5). The DSO Director was present during all of
Horton’s meetings pertaining to her disability grievance which was categorically denied. (App.
7-81:9-10); (App. 10). Once the Director completed DSO’s investigation of Horton’s claim of
not receiving testing accommodations for the Ortho exam and her subsequent failure, the
Director informed university and Program officials of the findings, clearly stating that Horton
had not received any accommodations for the Ortho exam and recommended she be allowed to
take the exam with approved testing accommodations in order to fairly assess Horton’s
knowledge from the course. (App. 7-81:9-10; 91:21-95:3; 93:1-18); (App. 10). The DSO
Director also stipulated that Horton be readmitted to the Program if she passed the exam. (App.

2

7-91:21-95:3; 93:1-18). Program administration did not respond to the Director’s notice nor
recommendation. (App. 5-83:23-84:12); (App. 7-93:14-18; 98:20-99:8). Ultimately, Program
administration denied Horton the opportunity to take the Ortho exam with testing
accommodations; therefore, the Program administration upheld their decision to academically
dismiss Horton from the Program. (App. 5-83:23-84:12); (App. 7-93:14-18; 98:20-99:8). The
Program’s academic dismissal of Horton from their Program prohibited Horton from being
eligible to apply to any other Physician Assistant Programs, including re-application to
Methodist’s Program.
Methodist filed a motion for Summary Judgment which was granted on January 23, 2019.
(App. 12). The court determined Horton was not “otherwise qualified” to remain in the Program
as a result of poor academic performance (App. 12-p3), despite Methodist’s inability to produce
any record of Horton’s grades in compliance with discovery requests and provided deposition
testimony stating that Horton’s grades no longer existed. As well, the federal court concluded
Horton had failed to present any genuine issue of fact. (App. 12). Horton then appealed her case
to the Fourth Circuit Court of Appeals (“COA”) requesting a de nova review of the lower court’s
ruling, to no avail, as COA affirmed the lower court’s decision. (App. 13).
Argument
The legitimacy of the questions raised by Horton in her Petition for Writ of Certiorari
(“Petition”) requesting discretionary review are exemplified by Methodist’s acknowledgment of
the true origin of Horton’s case being disability discrimination, not about academics. (App. 14).
In their opposition to Horton’s Petition, Methodist agreed the case revolved around Methodist’s
violation of turn federal statutes: Title III of the Americans with Disabilities Act (“ADA”) and
Section 504 of the Rehabilitation Act (“Rehab Act”) (referred to collectively as the “Acts”) when
3

Methodist admitted their failure (App. 5-69:16-25, 70:1-71:13); (App. 9-26:14, 31:1-5, 68:6-19,
69:13-20) to provide any testing accommodations for Horton while taking a high stakes exam,
critical to her advancement into the Clinical Phase of Methodist University’s Physician Assistant
Program (“Program”). (App. l-p2).
Also, in opposition to Horton’s Petition Methodist contends Horton “.. .does not assert
that the decisions of the lower courts conflict with this Court’s precedent...”, particularly with
respect to the academic deference doctrine. (App. 14-p5). Contrary to Methodist’s claim,
Horton’s Petition clearly discusses precedential cases referenced by the lower courts to justify
granting academic deference to Methodist regarding the Program’s decision to academically
dismiss her from their Program. In particular, Horton addresses the cases of Halpem v. Wake
Forest Univ. Health Sciences, 669 F.3d 454 (4th Cir. 2012), Neal v. Univ. of N.C., No. 5:17-CV00186-BR (E.D.N.C. May. 1,2018), and Class v. Towson Univ., 806 F.3d 236 (4th Cir. 2015).
(App’s. 15; 16; 17, respectively). Moreover, Methodist wrongly attributes the courts’ use of the
academic deference doctrine, in and of itself, to be the conflict Horton referenced in her Petition,
despite Horton declaring the conflict with precedent to be the lower courts’ disparate application
of the deference doctrine in her case when likened to established precedent.
In Horton’s case, the lower courts referred to legal precedent established through cases
such as Regents of University of Michigan v. Ewing, 474 U.S. 214,106 S. Ct. 507 (1985)
(“Ewing”), Board of Curators, Univ, ofMo. v. Horowitz, 435 U.S. 78, 98 S. Ct. 948 (1978)
(“Horowitz”), and Halpern v. Wake Forest Univ. Health Sciences, 669 F.3d 454, 44 NDLR P
207 (4th Cir. 2012) (“Halpem”); to include this Court’s reference to Class v. Towson Univ., 806
F.3d 236, 52 NDLR P 55, 324 Ed. Law Rep. 20 (4th Cir. 2015) (“Class”). (App’s. 18; 19; 15,
respectively). At a glance, these cases may appear similar as they all involve institutions of
4

higher learning, disability accommodations, and academic deference; be assured they could not
be more different when considering the lower courts’ application of how and when it is
appropriate to defer to a school’s judgment.
When evaluating the courts’ use and application of the academic deference doctrine, the
courts clearly demonstrate that deference was not intended as an entitlement owed the school due
to its inherently academic nature. The courts’ intentions are apparent by their use of conditional
language which serves as a guide for determining the propriety of the courts deferring to the
school’s judgment in purely academic matters. (App. 15); (App. 16). This conditional standard
was upheld by the courts considering the clear academic nature of the precedential cases, but the
lower courts erred in applying the same standard in Horton’s case considering it was not
applicable in a case of disability discrimination.
While there are general similarities between Horton’s case and the precedential cases
referenced, court reasoning in the precedential cases blatantly contradicts the lowers courts’
justification for deferring to Methodist’s professional judgment in Horton’s case. In each of the
precedential cases, granting of academic deference to the school by the courts was condi tional-,
therefore, deference would not be warranted lest these conditions be met in advance by the
school. With respect to the lower courts’ application of academic deference in Horton’s case, the
inconsistency is two pronged:
(1) whether the issue is one of academics or discrimination, and
(2) whether the school exercised professional judgement by acting in “good faith” and
their decisions did not “...[depart] from accepted academic norms.”

5

U.S. Supreme Court distinctly identified the question before the court to one of an
academic nature establishing a conditional element necessary for deferring the court’s judgment
to that of the school. (App. 15); (App. 16). In these precedential cases, the courts determined
the nature of the legal question being presented prior to deferring to a school’s professional
judgment and only then if the question before the court was of academic nature. This
precedential standard is the antithesis of the standard the lower courts applied in Horton’s case,
considering her case was clearly one of disability discrimination not academics. (App. 1)).
In the case of Horowitz, ensuring the schools “acted in good faith” and without
“substantial departure from accepted academic norms” are also conditional elements the courts
used in determining if a school had “... exercisefd] professional judgment ..when assisting a
student with disabilities prior to affording academic deference. (App. 19). In Horton’s case, the
University clearly failed to act in good faith by denying her any testing accommodations while
taking the Ortho Final Exam which was surely a “... substantial departure from accepted
academic norms as to demonstrate that the [school] did not actually exercise professional
judgment” for a student such as Horton who was approved for testing accommodations. (App.
19). Based on the courts’ rationale and application of the academic deference policy as
referenced in precedential cases, it is abundantly clear that the lower courts’ decisions in
Horton’s case were in direct conflict with precedent which should have precluded the courts
from granting the privilege of academic deference to Methodist in a disability discrimination
case such as Horton’s.
The lower courts decision to determine Horton not otherwise qualified for retention in
Methodist’s Program presents a conflict with court precedence and directly contradicts the letter
of law. The Acts, plainly state that a student approved for accommodations must receive those
6

accommodations before applying the “not otherwise qualified” standard. (App. 15). Evidence,
readily available to the lower courts as part of Court Record, confirms the lower courts based
their decisions on a faulty premise in Horton’s case; therefore, their decision is faulty as well.
(App. 6-81:16-17, 82:23-25, 83:1-3, 104:14-20, 109:13, 16,20-23). Garbage in. Garbage out.
Conclusion
Upon reviewing all the evidence provided by Horton and critically examining the legal
reasoning established in the precedential cases, this Court should grant Horton’s Petition and/or
remand the case to the lower court to allow Horton to receive the substantive due process she
rightly deserves and is guaranteed by the United States Constitution.

Tammy Horton,(Eetitioner-/?ra se
3170 Bethel Baptist Road
Spring Lake, NC 28390
tammyjhorton@gmail.com

7

